DOE F 1325.8
(08-93)
United States Government
Department of Energy
memorandum

DATE: August 19, 1996

REPLY TO
  ATTN. OF:    IG-1

SUBJECT INFORMATION:    Report on "Special Audit of Pension Plans for
                        Department of Energy Contract Employees of the
                        University of California"

TO: The Secretary

BACKGROUND:

 The Office of Inspector General has issued several audit reports on
 the pension plans operated for Departmental contract employees,
 including those for the employees of the University of California
 operated laboratories. In general, the reports have recommended
 methods for improved Departmental management of the pension plans
 for those employees. On May 15, 1996, the Department of Energy
 (DOE) announced its decision to extend and renegotiate its contracts
 with the University of California for the management and operation
 of the Los Alamos, Lawrence Berkeley, and Lawrence Livermore
 National Laboratories. Contracts for the operation of these
 laboratories would have expired in 1997.

 DISCUSSION:

 The renegotiation process provides the Department an opportunity to
 recover at least $620 million in excess assets from the pension
 plans it has funded for University of California employees at DOE's
 laboratories and to improve the Department's management of those
 pension funds. Because the laws governing pension plans restrict an
 employerms ability to remove assets from pension plans, recovering
 the excess funds may require special legislation. As a result of
 this audit, we recommended that the Department set negotiation
 objectives to: (1) require the University of California to
 cooperate with the Department's efforts to recover the excess
 pension assets, including jointly sponsoring special legislation, if
 necessary; and (2) modify the pension plan arrangements to improve
 its ability to manage future pension benefits for the University of
 California employees at DOE's national laboratories.

 The Office of Procurement and Assistance Management agreed in
 principle with the report recommendations, but declined to discuss
 specific elements of the Department's negotiating position with the
 University of California.
                                    (SIGNED)

                                 John C. Layton
                                 Inspector General

 Attachment

 cc:     Deputy Secretary
         Under Secretary
         Assistant Secretary for Human Resources and Administration

                      U.S. DEPARTMENT OF ENERGY
                     OFFICE OF INSPECTOR GENERAL




       SPECIAL AUDIT OF PENSION PLANS FOR DEPARTMENT OF ENERGY
         CONTRACT EMPLOYEES OF THE UNIVERSITY OF CALIFORNIA




Report Number: DOE/IG-0394
Office of Audit Services
Washington, DC 20585

Date of Issue:     August 1996


                      U.S. DEPARTMENT OF ENERGY
                     OFFICE OF INSPECTOR GENERAL




       SPECIAL AUDIT OF PENSION PLANS FOR DEPARTMENT OF ENERGY
         CONTRACT EMPLOYEES OF THE UNIVERSITY OF CALIFORNIA



                          TABLE OF CONTENTS


Introduction ......................................     1

Background ........................................     1

Opportunity for Recovery of Pension Plan Assets
and Improved Plan Management ......................     2

Conclusion ........................................     5

Recommendations ...................................     5

Management Comments ...............................     6
Appendices

     Appendix 1, Pension Values for the University
     of California Retirement Plan, as of July 1,
     1995 .........................................   7

     Appendix 2, Discussion of Prior Office of
     Inspector General Reports on Contractor
     Pension Plans ................................   8

     Appendix 3, Audit Objective, Scope and
     Methodology .................................. 10
                  U.S. DEPARTMENT OF ENERGY
                 OFFICE OF INSPECTOR GENERAL
                  OFFICE OF AUDIT SERVICES


   SPECIAL AUDIT OF PENSION PLANS FOR DEPARTMENT OF ENERGY
     CONTRACT EMPLOYEES OF THE UNIVERSITY OF CALIFORNIA


Audit Report Number:   DOE/IG-0394


INTRODUCTION

     On May 15, 1996, the Department of Energy (DOE)
announced its decision to extend and renegotiate its
contracts with the University of California for the
management and operation of the Los Alamos, Lawrence
Berkeley, and Lawrence Livermore National Laboratories.
Current contracts for the operation of these laboratories
expire in 1997. The renegotiation process provides an
opportunity for the Department to: (1) recover at least $620
million in excess assets from the pension plans it has funded
for University of California employees who work at DOEms
laboratories; and (2) improve the Department's ability to
exercise prudent management of its interest in those pension
funds.

     According to Department records, as of July 1, 1995, the
University of California Retirement Plan had between $620
million and $2.0 billion in excess assets that were
attributable to the Department of Energy (emphasis supplied).
The wide variation in excess assets is a function of the
assumptions used in making these calculations. These are
described in Appendix 1 to this report. We concluded as a
result of the audit that, as part of the contract
renegotiation process, the Department should obtain the
cooperation and assistance of the University of California in
recovering excess pension plan assets in a manner that does
not affect the defined retirement benefits of the contract
employees. This could include jointly sponsoring legislation
to modify any existing legal restrictions.

BACKGROUND

     Pension plans provide post retirement income for
employees. The Department funds pension programs established
by its management and operating contractors for the contract
employees. In this case, DOE, as part of its contracts with
the University of California, funded the retirement program
for employees working at Los Alamos, Lawrence Livermore and
Lawrence Berkeley National Laboratories. Under the terms of
the current contract, the University of California has wide
latitude in the management of these programs. It can, for
example, unilaterally change the future pension benefits of
employees at the three national laboratories.
     The University of California Retirement Plan (UCRP) is a
qualified governmental defined benefit pension plan that
calculates benefits based on a formula that includes such
factors as employee compensation and years of service. The
Internal Revenue Code restricts the distribution of assets
from qualified governmental pension plans. Thus, the assets
and income of the UCRP cannot be used for any purpose other
than to pay benefits to the employees covered under the plan
unless all liabilities under the plan are satisfied.
Satisfaction of plan liabilities requires that all plan
participants become fully vested upon plan termination. The
restrictions on distribution protect pension plan assets and
the interests of plan participants. Generally, the proceeds
of a plan termination and distribution are subject to a
Federal excise tax. As an entity of the California state
government, however, the University of California would be
exempt from Federal excise taxes. As part of a larger tax
bill, the Congress recently passed legislation that would
allow for limited employer recovery of pension plan assets
without plan termination. The Administration publicly
opposed this provision on the grounds that it would lead to
employer raids on pension plan assets. The tax bill was
subsequently vetoed.

     The Office of Inspector General (OIG) has issued five
audit reports on the pension plans operated for contract
employees. Those reports have identified management issues
regarding the Department's funding of the pension plans for
contractor employees and have recommended various measures to
control pension plan costs. (See Appendix 2 for a discussion
of prior audit reports.)

     The OIG issued the latest audit report on pensions in
1994 and recommended that the Department require the contract
operator of Sandia National Laboratory to reduce the
overfunding in its pension program and return approximately
$409 million in excess pension assets to the Federal
Government. The Department nonconcurred with the recom-
mendation. It took this position based on its contention
that the action would require future deposits into the plan
and could lead to Sandia Corporation being liable for Federal
taxes; would be time-consuming, administratively difficult
and cost prohibitive; and, that such action could be
injurious to contractor employee morale.

OPPORTUNITY FOR RECOVERY OF PENSION PLAN ASSETS AND IMPROVED
PLAN MANAGEMENT

     In the May 1996 announcement of the decision to
renegotiate the contracts with the University of California,
the Department expressed its commitment to bring management
improvements and greater accountability to its contractual
relationship with the University of California. Further, the
Department stated that the new contracts also must provide
for enhanced oversight by the Department in business and
financial management. In this context, we concluded that the
current negotiations with the University of California give
the Department a unique opportunity to recover excess pension
fund assets from the UCRP and to modify the pension
arrangement so that the DOE can exercise greater management
control of its interest in the pension plans.

     Current laws governing pension plans prevent employers
from removing assets from a pension plan unless it terminates
the plan, fully vests all plan participants, and satisfies
the plan liabilities. The instant situation is complicated
by the fact that the laboratories' plans are not segregated
from the overall University of California pension program.
About 25 percent of the assets of the UCRP are attributable
to the DOE. Therefore, dissolving the pension plan in its
entirety to recover any excess assets could affect thousands
of University of California employees who have no
relationship to the Department.

     As an alternative to terminating the UCRP, special
legislation could be introduced that would allow the recovery
of excess pension fund assets from the UCRP. It would appear
that the best opportunity to achieve the legislative
consensus necessary to enact the special legislation would be
if it were sponsored jointly by the Department and the
University of California. This approach could also have the
added benefit of allowing the University of California to
recover a significant amount of excess pension fund assets
contributed for non-contract employees of the University of
California. To its credit, the Department's Office of
Procurement and Assistance Management has already taken
action to explore the feasibility of special legislation.

     Need for Action. We believe that the Department should
negotiate an agreement with the University of California to
assist the Departmentms efforts to recover the excess pension
funds and return those funds to the Department. If
necessary, this should include an understanding that the
University of California will cooperatively sponsor special
legislation that would allow the recovery of the excess
pension plan funds attributable to the DOE.

     In addition, in negotiation for the new contract, the
Department should establish as a firm goal the objective of
obtaining a better management position over its interest in
the assets of the UCRP. This should include the
establishment of separate or segregated defined benefit
pension plans for the laboratoriesm personnel, and the
creation of a mechanism in which the Department approves
material changes to the pension program for the laboratory
employees, specifically including proposals that would have
the effect of increasing pension liabilities.

     Segregated or separate plans are required by the
Departmentms policy on pension programs. In this case, the
pension plans should be distinct from the main UCRP, with
their own separately determined funding levels. Establishing
separate pension plans for the national laboratoriesm
employees would simplify accounting for the Federal
Government contributions to the plan, and provide the
Department more control over future changes to the pension
plans. The establishment of separate pension plans would
help to meet the Department's stated goal of increased
accountability and provide the Department with enhanced
oversight in business and financial management. The
Department approached the University of California in 1995
about establishing separate pension plans for employees of
the three national laboratories managed by the University.
The University of California did not agree with the
Departmentms proposal stating in its response that scientists
at the national laboratories needed to be recognized as peers
in the University of California faculty and that need
included being part of the UCRP.

     The University of California has made unilateral changes
in the UCRP that increased benefits for participants in the
UCRP. We reported in September 1992 that the University had
established an additional retirement benefit for all UCRP
members working during the period January 1, 1991, through
June 30, 1993. The University funded the new benefit with
surplus assets, reducing the Department's share of those
surplus assets. General DOE policy for its management and
operating contractors requires that such changes be approved
by the Department before implementation. However, the unique
nature of the contracts with the University of California
give the University the right to make such decisions
unilaterally. Given the significance of the level of excess
assets currently in the UCRP, we concluded that this issue
should be addressed if DOE is to be in a position to exercise
appropriate management over its interest in the University's
pension program. This matter is directly related to the need
to establish segregated or separate pension plans for
employees at the DOE laboratories managed by the University
of California.

     Cost Versus Benefits. The circumstances surrounding the
current situation with the University of California employees
are similar to those that existed during our recent audit of
the Sandia pension program. When we issued a preliminary
management alert related to the Sandia pension program on
June 8, 1993, the Department was in the process of changing
the management contractor. Based on the latest information
available at the time, the Sandia pension plans were
overfunded by about $589 million, of which we estimated that
approximately $409 million could have been returned to the
Government. Management nonconcurred in our recommendation
that the Department act to recoup a significant portion of
those funds. We believe that the overfunded pension position
of the University of California plan (at least $620 million
attributable to DOE) is so extreme that the Department needs
to reexamine its earlier position.

     We evaluated the Departmentms basis for its position in
the Sandia matter in light of the current University of
California situation. Our analysis follows:
    Removing the excess funds from pension plans would
  create future funding deficits in the plan and would also
  create tax liabilities for the contractor which would lessen
  the amount recovered by DOE. It is our view that any
  transaction to remove excess funds from the University of
  California plan could be structured so as to leave sufficient
  assets in the pension plan to meet future funding needs. The
  specifics of this determination would require analysis by
  pension specialists. We were informed that the University of
  California would not have to pay excise taxes on the proceeds
  since it is a government instrumentality. If special
  legislation was drafted to allow the withdrawal of excess
  assets from all management and operating contractor pension
  plans, that legislation could address the issue of taxes on a
  global basis. Finally, even if the tax liabilities could not
  be avoided, any special or additional Federal taxes collected
  would, in effect, serve to reduce the national deficit.

    The cost associated with taking action would be
  prohibitive. We recognize that this would be a costly
  undertaking. In addition to in-house experts, the Department
  and the University of California would likely have to obtain
  the services of outside specialists. However, the potential
  recovery associated with the University of California plan is
  now so large, that it is likely that the benefits would
  substantially exceed the costs.

    The administrative steps in recovering the excess funds
  would be time-consuming and could not be completed before the
  contractor change. We recognize the complexity of this
  matter and the time-consuming nature of the transactions
  necessary to recover the excess pension plan assets. The
  current University of California contracts do not expire
  until 1997. We believe there is sufficient lead time to at
  least initiate the proposed recommendations and, if
  necessary, incorporate needed future actions in the new
  contract instruments.

    Reducing pension fund assets would damage employee
  morale. We are sensitive to the concerns of the
  laboratoriesm employees. It is to be expected that they are
  concerned by any proposal that they perceive as jeopardizing
  their future financial security. However, the Department and
  the University can structure a program to minimize employee
  concerns. Further, the employees could be included in the
  process which would reassure them of the safety of their
  future retirement benefits.

CONCLUSION

     The recovery of excess contractor pension plan assets is
not unprecedented in DOE. In 1991, the Department negotiated
a settlement with the E.I. du Pont de Nemours & Company and
recovered approximately $610 million from the pension plan
when the company terminated its management and operating
contract at the Savannah River Plant after more than 38
years. The OIG had recommended that course of action to the
Department as a result of the audit work on DOE/IG-0264,
"Report on Pension Benefits for Du Pont Employees at the
Savannah River Plant." While recovering excess funds from
contractor pension plans would be administratively
challenging, the potential benefits are great. Given the
current state of the budget situation facing the U.S.
Government, we concluded that this may be the appropriate
time for aggressive action to recover these funds. Achieving
this goal will require close cooperation between the
Department, the contractor managing the laboratories, and
laboratory personnel.

RECOMMENDATIONS

     We recommend that the Assistant Secretary for Human
Resources and Administration establish objectives in its
negotiation with the University of California that would:

          Require the University of California to cooperate with
       the Departmentms efforts to recover its portion of the excess
       pension fund assets from the UCRP, and to return those excess
       assets to the Department of Energy. This would include, as
       needed, agreeing to jointly sponsor special Federal and state
       legislation to ease any legal restrictions on such action.

          Modify the current pension arrangement to improve the
       Department of Energy's ability to exercise prudent management
       of its interest in the pension plan established for its
       University of California contract employees. Specifically,
       the Department should be in a position to approve changes to
       future pension benefits for its laboratory employees.




                                                     (Signed)
                                            Office of Inspector
     General
                      MANAGEMENT COMMENTS

     The Office of Inspector General issued the final draft
report on July 19, 1996, and received management comments
from the Deputy Assistant Secretary for Procurement and
Assistance Management on August 6, 1996.

Management Comments.   Management agreed in principle with
the report recommendations but declined to discuss any
specific elements of the Department's negotiating position.


PENSION VALUES FOR THE UNIVERSITY OF CALIFORNIA RETIREMENT PLAN
                       AS OF JULY 1, 1995


DOE LABS   MARKET         ACTUARIAL         ACCUMULATED      PROJECTED
           VALUE OF       VALUE OF          BENEFIT          BENEFIT
              ASSETS (1)      ASSETS (2)       OBLIGATION (3)      OBLIGATION (4)

                   MARKET           MARKET         ACTUARIAL          ACTUARIAL
                   VALUE OF         VALUE OF       VALUE OF           VALUE OF
                   ASSETS           ASSETS         ASSETS             ASSETS
                   LESS ABO         LESS PBO       LESS ABO           LESS PBO

LBL         $706,980,000    $621,916,000         $404,011,205        $492,049,700
               $302,968,795    $214,930,300         $217,904,795        $129,866,300

LLNL       2,257,774,000    1,986,145,000    1,363,853,993    1,719,664,400
                893,920,007      538,109,600      622,291,007      266,480,600

LANL       2,124,821,000    1,869,185,000    1,325,001,609    1,645,699,300
                799,819,391      479,121,700      544,183,391      223,485,700

DOE
TOTALS     5,089,575,000    4,477,246,000    3,092,866,807    3,857,413,400
              1,996,708,193    1,232,161,600    1,384,379,193    $619,832,600



UCRP
TOTAL     20,129,620,000   17,707,823,000


RATIOS
DOE/UCRP      25.28%            25.28%


(1) THE MARKET VALUE OF ASSETS REFLECTS THE MOST CURRENT MARKET PRICE
    FOR THE SECURITIES HELD IN THE PLAN.

(2) THE ACTUARIAL VALUE OF ASSETS REFLECTS ADJUSTMENTS TO SPREAD THE
    FLUCTUATIONS IN THE MARKET VALUE OF SECURITIES OVER A PERIOD OF TIME,
    SUCH AS 5 YEARS.

(3) ACCUMULATED BENEFIT OBLIGATIONS ARE CALCULATED ON THE ASSUMPTION THAT
    EMPLOYEES WILL NOT ACCRUE MORE BENEFITS UNDER THE PENSION PLAN.

(4) PROJECTED BENEFIT OBLIGATIONS ARE CALCULATED ON THE ASSUMPTION THAT
    EMPLOYEES WILL CONTINUE TO ACCRUE MORE BENEFITS UNDER THE PLAN.




           DISCUSSION OF PRIOR OFFICE OF INSPECTOR GENERAL REPORTS
                         ON CONTRACTOR PENSION PLANS


    DOE/IG-0233, "Sandia Corporation Defined Benefit Pension Plans,"
  (November 1986). The OIG reported that Sandia Corporation made
  payments into its pension plans even though the plans were overfunded
  by approximately $77.7 million according to the actuarial statement
  for the fund. The Department reimbursed Sandia for these payments.

       DOE/IG-0240, "Management and Operating Contractorsm Pension
Plans," (June 1987). This DOE-wide audit, which included Sandia
Corporation but not the University of California, reported that, in
1983, 20 management and operating contractors had contributed $94
million more than the minimum required funding limits to 28 pension
plans. Again, these payments were reimbursed by the Department. In
response to the audit, the Department issued a memorandum on interim
pension funding policies in January 1988 that required field offices
to limit contributions to contractor pension funds to the amount
needed to maintain an equilibrium between pension fund assets and the
present value of liabilities. To formalize this process, the
Department began an effort to revise DOE Order 3830.1, "Policies and
Procedures for Pension Programs Under Operating and Onsite Service
Contracts." As of September 30, 1995, over 7 years since the interim
policy was established, the revised order had not been issued.

  DOE/IG-0264, "Report on Pension Benefits for Du Pont Employees at
the Savannah River Plant," (February 1989). The OIG reported that the
Department should assume control of the $513 million in excess assets
in the Du Pont pension plan and negotiate with Du Pont a close-out of
the pension plan that would provide for an independent actuarial
evaluation of the Du Pont pension fund to validate the assets and
liabilities; and a lump-sum settlement to provide for the pension
benefits of Du Pont retirees.

  DOE/IG-0314, "Pension Fund Activities at Department Laboratories
Managed by the University of California," (September 1992). The OIG
reported that the Department did not have sufficient internal controls
to ensure that the Departmentms share of University pension funds was
protected and that pension fund contributions were kept to the minimum
to meet the commitment to the contract employees. At the time, the
Department could not determine what portion of the $4.3 billion
surplus funds in the University of California pension plan was
attributable to DOE contributions. Further, under the terms of the
contract with the University of California, the Department did not
have the authority to approve proposed changes to University pension
programs, or even the final settlement in the event of contract
expiration or termination. Finally, as part of the contract, any
costs associated with the University pension programs were allowable
as long as they were based on the same contribution rate applied to
other University elements.

As a result of the audit, the Department took steps to ascertain what
portion of the pension funds were attributable to the laboratories'
employees funded by the Department of Energy. Although the Department
did not attempt to renegotiate contract terms that would require the
Department to approve changes in laboratoriesm employee pension plans
affecting the Department's share of surplus assets, it committed to
reevaluating those provisions when the contract was renegotiated. In
1994, the Department tasked a consulting group with expertise in
pensions to explore the possible options for recovering excess pension
assets from the UCRP. That firm recommended that the Department
discuss the possibility of waiving excise taxes on recovered pension
benefits with the Internal Revenue Service. In January 1996, at the
request of the Department, the same consulting firm revisited the
issues and suggested that the Department might sponsor special
legislation allowing for the removal of pension benefits from the
UCRP.
    DOE/IG-0346, "Audit of Sandia Corporationms Pension Plans and
  Other Prefunded Benefits," (April 1994). The OIG reported that the
  Sandia Corporation pension plan had approximately $589 million in
  excess assets and recommended that the Department take action to
  reduce the assets in Sandia Corporationms pension plans to the minimum
  required to cover the actuarially determined future benefits and to
  recover the U.S. Governmentms share of excess assets in the plans.
  The Department nonconcurred and stated that its position was based on
  the following: (1) removing the excess funds from Sandiams pension
  plans would create future funding deficits in the plan and would also
  create tax liabilities for the Sandia Corporation which would lessen
  the amount recovered by the DOE; (2) the cost associated with taking
  action would be prohibitive; (3) the administrative steps in
  recovering the excess funds would be time-consuming and could not be
  completed before the contractor change; and (4) reducing pension fund
  assets would damage employee morale. We were informed that the
  Department retained outside counsel and an actuarial firm to assist it
  in evaluating this matter.

                AUDIT OBJECTIVE, SCOPE AND METHODOLOGY


     The objective of the audit work was to evaluate the situation
facing the Department in regard to the excess assets in the UCRP and
determine how the Department could recover those assets for the
Federal Government. The scope of the audit effort included the
possible legal issues facing the return of excess pension plan funds
to the Federal Government and the amount of excess assets in the UCRP
as of July 1, 1995. The audit methodology included the review and
analysis of previous OIG audit reports and managementms response to
those reports, DOE correspondence on pensions and, pension plan
documents from the University of California.

     The audit work was conducted in accordance with generally
accepted government auditing standards, except that we relied upon
data provided by the University of California to the Department on the
amount of pension fund assets in the UCRP and did not independently
verify the accuracy of this computer-processed data. Because the
scope of this effort was limited, we did not perform a new assessment
of internal controls over pension plans, but relied upon assessments
conducted in previous audits.

                              IG Report No. DOE/IG-0394



                   CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing
interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible
to our customers' requirements, and therefore ask that
you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please
include answers to the following questions if they are
applicable to you:

     1.   What additional background information
          about the selection, scheduling, scope,
          or procedures of the audit or inspection
          would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to
          findings and recommendations could have
          been included in this report to assist
          management in implementing corrective
          actions?

     3.   What format, stylistic, or organizational
          changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of
          Inspector General have taken on the issues
          discussed in this report which would have
          been helpful?

Please include your name and telephone number so that
we may contact you should we have any questions about
your comments.

Name ____________________________
Date_____________________

Telephone _______________________
Organization_____________

When you have completed this form, you may telefax it
to the Office of Inspector General at (202) 586-0948,
or you may mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments
with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
